WAIVER

Supreme Court of the United States

No. 20-5482
Marvin Arido Sorro Vv, Brnovich, Att'y Gen. of AZ, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
& Please enter my appearance as Counsel of Record for all respondents.

G There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

a Tam a member of the Bar of the Supreme Court of the United States.
Q

0 Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature see ee _ CS.

 

 

 

 

 

 

Date; 4 ( [oO Qs ;
(Type or print) Name. M Le ARE DO Veo ce
Mr. CMs. C) Mrs, 0 Miss
Firm__Arreevey Generar’ OF F1ce
Address 2005 MN CENTRAL Mue.
City & State. Puoent Kx, AZ, Zip SS of

 

Phone © OZ-SY2- Yb

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce MFRU/N SORRS * 3QOCORKE
(0,602 S Ce OT RO
BA SHITE PRISaN~ TUCSOM
WINE HES TER NIT
P20. Box A44EF
Titson, AE. F734
Obtain status of case on the docket. By phone at 202-479-3084 or via the internet at
http/vww.supremecourtus.gov. Have the Supreme Court docket number available,

 

 

 

 

 

 

 

 
